la

APPENDIX
United States Court of Appeals for the 10th Circuit
ORDER AND JUDGMENT
October 1, 2019
SCOTT M. MATHESON, JR., Circuit Judge.
Anthony J. Lucero appeals the dismissal of his p ro se
complaint alleging Fourteenth Amendment violations
his
former counsel, Paul Gordon and Paul Gordon, LLC
(collectively, Mr. Gordon). Exercising jurisdiction under 28
U.S.C. § 1291, we affirm.
I. BACKGROUND
This is the latest litigation stemming from Mr.
Lucero's work-related injuries. After he was injured on the
job, Mr. Lucero hired the Koncilja law firm to represent him
on worker's compensation and related state tort claims.
Dissatisfied with his legal representation, Mr. Lucero sued
the Koncilja firm twice in state court, once pro se and once
through counsel—Mr. Gordon. When both suits were
dismissed, he filed a malpractice action against Mr. Gordon
in state court. The state court granted summary judgment to
Mr. Gordon because Mr. Lucero repeatedly failed to
designate an expert witness to establish the relevant
standard of care.
Mr. Lucero then initiated two separate suits in federal
court, one against the Koncilja firm and the other against

2a

Mr. Gordon. The district court dismissed both suits. We
recently affirmed the dismissal of the suit against the
Koncilja firm, see Lucero v. Koncilja, No. 18-1404, 2019 WL
3564157, at *3 (10th Cir. Aug. 6, 2019), and we now take up
the case against Mr. Gordon.
Mr. Lucero raises two claims. First, he alleges Mr.
Gordon violated his Fourteenth Amendment rights by failing
to file a "certificate of review, [failing to] do any
interrogatories, depositions, or investigations," and "wasting
valuable time and choosing] to accomplish nothing in my
case. " R. at 15 (emphasis omitted). Second, he claims Mr.
Gordon engaged in fraud by repeatedly filing "an
unprovable, non-evidential, sham affidavit that is
evidentially provable to be fraudulent, perjured in all
aspects, and grounds for disbarment and criminal
prosecution." Id. (emphasis omitted). Mr. Lucero also notes
"42 U.S.C. § 19830 creates a federal remedy for violations of
constitutional rights by what are called 'state actors.’" Id.
On September 17, 2018, a magistrate judge
recommended that the suit be dismissed under Federal Rule
of Civil Procedure 12(b)(6) because the allegations against
Mr. Lucero's private attorney failed to plead state action for
purposes of the Fourteenth Amendment and § 1983. Absent
a viable federal claim, the magistrate judge also
recommended that the district court decline to exercise
supplemental jurisdiction over the state-law fraud claim.
On October 9, 2018, Mr. Lucero objected to the
magistrate judge's report and recommendation. He
attempted to show state action by suggesting there was a
conspiracy between Mr. Gordon and a state court judge, who,
he asserted, "legally align[ed] herself with [Mr.] Gordon,
ignoring the rules of law and equity." Id. at 89. He claimed
the state judge permitted Mr. Gordon to file a sham affidavit,
refused to designate herself as his expert witness, and
granted Mr. Gordon's motion for summary judgment. Mr.

3a

Lucero also asserted the district court could exercise
diversity jurisdiction over his state-law fraud claim, though
he offered no sound basis for doing so.
The district court overruled the objections, adopted
the report and recommendation, and dismissed the suit. The
court ruled that the amended complaint failed to state a
claim because it contained no allegations of state action for
purposes of the Fourteenth Amendment and § 1983. The
court observed that Mr. Lucero did not allege a conspiracy
until his objections, and even if the objections were construed
as a supplement to his amended complaint, he still failed to
allege that Mr. Gordon and the state judge agreed to deprive
him of his constitutional rights. The court further
determined there was no basis for exercising either diversity
or supplemental jurisdiction over the state-law fraud claim,
and thus dismissed that claim as well.
II. DISCUSSION
A. Fourteenth Amendment
We first consider the dismissal of Mr. Lucero's
Fourteenth Amendment claim. Under our de novo review of
the district court's Rule 12(b)(6) dismissal, we accept all wellpleaded factual allegations in the amended complaint as true
and view them in the light most favorable to Mr. Lucero. See
Smith v. United States, 561 F.3d 1090. 1098 (10th Cir. 2009).
To survive a motion to dismiss, a complaint must "contain
enough facts to state a claim to relief that is plausible on its
face." Id. (internal quotation marks omitted). Although we
liberally construe Mr. Lucero's pro se materials, we "will not
supply additional factual allegations to round out [his]
complaint or construct a legal theory on [his] behalf." Id. at
1096 (internal quotation marks omitted).
"To state a cause of action under 42 U.S.C. § 1983 for
an alleged violation of the Fourteenth Amendment . . ., the

4a

challenged conduct must constitute state action." Scott v.
Hern, 216 F.3d 897. 906 (10th Cir. 2000) (citing Lugar v.
Edmondson Oil Co., 457 U.S. 922. 930-32 (1982)). "When a
plaintiff in a § 1983 action attempts to assert the necessary
'state action' by implicating state officials or judges in a
conspiracy with private defendants, mere conclusory
allegations with no supporting factual averments are
insufficient; the pleadings must specifically present facts
tending to show agreement and concerted action." Id. at 907
(internal quotation marks omitted). The complaint must
plausibly allege "a significant nexus or entanglement
between the absolutely immune State official and the private
party in relation to the steps taken by each to fulfill the
objects of their conspiracy." Norton v. Liddel, 620 F.2d 1375.
1380 (10th Cir. 1980).
Mr. Lucero did not allege any such facts. In his
amended complaint, he did not mention the state judge;
rather, he simply charged Mr. Gordon—a private attorney—
with violating his due process rights. In his objections to the
magistrate judge's report and recommendation, Mr. Lucero
suggested there was conspiracy between the state judge and
Mr. Gordon, but those allegations failed to plausibly allege
an agreement or concerted action between them. He merely
averred that the state judge permitted Mr. Gordon to file an
affidavit that Mr. Lucero claimed was a sham affidavit. He
also faulted the state judge for not acting as his expert
witness and for ruling in Mr. Gordon's favor. These
averments fail to plausibly allege an agreement, a nexus, or
a shared conspiratorial objective to violate Mr. Lucero's
Fourteenth Amendment rights. Because Mr. Lucero failed to
plausibly allege state action, the district court correctly
dismissed the claim.
B.
State-Law
Jurisdiction

Claim

&

Supplemental

5a

Having dismissed the Fourteenth Amendment claim,
the district court declined to exercise supplemental
jurisdiction over the state-law fraud claim. We perceive no
abuse of discretion. See Nielander v. Bd. of Cty.
Comm'rs, 582 F.3d 1155. 1172 (10th Cir. 2009). Once "the
district court has dismissed all claims over which it has
original jurisdiction," 28 U.S.C. § 1367(c)(3), "the court may,
and usually should, decline to exercise jurisdiction over any
remaining state claims," Smith v. City of Enid ex rel. Enid
City Comm'n, 149 F.3d 1151. 1156 (10th Cir. 1998); see 13D
Charles Alan Wright & Arthur R. Miller, Federal Practice &
Procedure § 3567.3 (3d ed. Aug. 2019 Update) ("As a general
matter, a court will decline supplemental jurisdiction if the
underlying [federal] claims are dismissed before trial.").
Absent a viable federal claim, the court did not abuse its
discretion in declining to exercise supplemental jurisdiction
over the state-law claim. To the extent Mr. Lucero maintains
the court alternatively could have exercised diversity
jurisdiction, he still cites no sound basis for doing so.
III. CONCLUSION
We affirm the district court's judgment.
FootNotes
* After examining the briefs and appellate record, this
panel has determined unanimously that oral argument
would not materially assist in the determination of this
appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The
case is therefore ordered submitted without oral argument.
This order and judgment is not binding precedent, except
under the doctrines of law of the case, res judicata, and
collateral estoppel. It may be cited, however, for its
persuasive value consistent with Fed. R. App. P. 32.1 and
10th Cir. R. 32.1.

6a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge William J. Martinez
Civil Action No. 17-cv-3142-WJM-KMT
ANTHONY J. LUCERO,
Plaintiff,
v.

PAUL GORDON, and
PAUL GORDON LLC,
Defendants.

ORDER ADOPTING SEPTEMBER 17, 2018
RECOMMENDATION OF MAGISTRATE JUDGE
GRANTING DEFENDANTS’ MOTION TO DISMISS,
DISMISSING PLAINTIFFS CONSTITUTIONAL
CLAIM, AND DECLINING TO EXERCISE
SUPPLEMENTAL JURISDICTION OVER THE
REMAINING STATE LAW CLAIM

This matter is before the Court on United States
Magistrate Judge Kathleen M. Tafoya’s Recommendation
dated September 17, 2018 (the “Recommendation”) (ECF
No. 21), which recommended that this Court grant
Defendant Paul Gordon and Defendant Paul Gordon, LLC’s
(collectively, “Defendants”), Motion to Dismiss (ECF No. 13)
Anthony J. Lucero’s (“Plaintiff’) claims as follows: (1)
dismiss, with prejudice, Plaintiffs Fourteenth Amendment
claim; and (2) decline to exercise supplemental jurisdiction
over Plaintiffs remaining fraud claim. The Recommendation

7a

is incorporated herein by reference. See 28 U.S.C. §
636(b)(1)(B); Fed. R. Civ. P. 72(b). Plaintiff filed a timely
Objection to the Recommendation (“Objection”). (ECF No.
22.) For the reasons set forth below, Plaintiffs Objection is
overruled, the Recommendation is adopted in its entirety,
Defendants’ Motion to Dismiss is granted, Plaintiffs
Fourteenth Amendment claim is dismissed with prejudice,
and Plaintiffs fraud claim is dismissed
without prejudice.
I. BACKGROUND
The Court derives the following primarily from
Defendants’ Motion to Dismiss (ECF No. 13) and the exhibits
attached to that motion. This is because Plaintiffs complaint
(ECF No. 1) and amended complaint (ECF No. 9) (the
“Amended Complaint”) are completely devoid of information
needed to separately provide this Court with needed context
and background.
In 2006, Plaintiff sustained serious injuries while
working at a hotel. (ECF No. 13-5 at 2.) Plaintiff retained
attorney James R. Koncilja and law firm Koncilja & Koncilja,
P.C. (collectively, “Koncilja”), who filed a personal injury
action on Plaintiffs behalf in November 2008. (Id.) That
action was eventually dismissed in 2010 “for failure to
respond to a delay prevention order and otherwise diligently
prosecute the case.” (Id.)
In 2011, Plaintiff retained Defendants to file an action
against Koncilja alleging professional malpractice and
breach of contract in the handling of the personal injury case.
(Id.) This lawsuit was ultimately dismissed in 2012 because
Plaintiff: (1) had failed to obtain expert testimony after it
had been “deemed to be necessary to determine whether
Koncilja’s actions constituted negligence or a breach of
contract”; and (2) “had not filed a certificate of review as

8a

required by statute.” (Id.) The Colorado Court of Appeals
subsequently affirmed that dismissal ruling. (Id. at 3.)1
On October 17, 2013, Plaintiff, proceeding pro se, filed
an action against Defendants in Colorado state court. (Id.) In
the lawsuit, Plaintiff alleged that the Defendants were
“negligent in handling the legal malpractice case against
Koncilja.” (Id.) This time Plaintiff filed a certificate of review
but once again did not designate any expert witness for trial.
(Id.) On October 28, 2014, Defendants filed a motion for
summary judgment, arguing that Plaintiff had continually
“failed to endorse any expert witness” even though such
“expert testimony was necessary to show professional
negligence.” (ECF No. 13-1 at 2.) The state court denied the
motion and subsequently granted Plaintiff multiple
continuances under “the belief that Plaintiff, who remains
pro se, should be given extra reasonable opportunities to
comply with the expert witness disclosure requirements.”
(Id. at 2-3.)
11 Plaintiff then filed a petition for writ of certiorari, which was denied
by the Colorado Supreme Court. Lucero v. Koncilja, 2018 WL 4242924,
at *2 (D. Colo. Sept. 6, 2018). Soon after, Plaintiff, proceeding pro se,
filed a second malpractice lawsuit against Koncilja in Colorado state
court. Id. In dismissing the action, the trial court noted that “the issues
raised in the instant case are the same issues that were or should have
been raised in [Plaintiff’s first malpractice lawsuit].” Id. In addition, the
court noted that Plaintiff once again did not file the required certificate
of review. Id. Instead of appealing the court’s dismissal, Plaintiff filed a
motion for relief. Id. This motion was denied by the trial court because
“Plaintiffs remedy . . . was to file a Notice of Appeal.” Id. Plaintiff
appealed the trial court’s denial of his motion for relief but the Colorado
Court of Appeals affirmed the order. Id. Plaintiff then filed a petition
for writ of certiorari, which was again denied by the Colorado Supreme
Court. Id. Soon after, Plaintiff brought a third malpractice action
against Koncilja, this time before this Court. Id. Plaintiffs federal
question claim (that Koncilja violated Plaintiffs Fourteenth
Amendment Due Process right by not adequately investigating
Plaintiffs case) was dismissed and this Court declined to exercise
supplemental jurisdiction over Plaintiffs state law claims. Id. at *5-6.

9a

In its last continuance, the court required Plaintiff to
disclose who his “expert witness might be” by June 1, 2015.
(Id. at 3.) When Plaintiff failed to do so, the court granted
Defendants’ second motion for summary judgment. (Id. at 5.)
Plaintiff failed to appeal this judgment within the
time permitted by Colorado law, but instead filed a motion
for relief from judgment. (ECF Nos. 13 at 2 & 13-5 at 3.) In
the motion, Plaintiff relied primarily on the argument that
the Defendants had attached a fraudulent affidavit (the
“Affidavit”) to their summary judgment motion. (ECF No.
13-5 at 3.) The Affidavit described alleged discussions the
Defendants had with Plaintiff concerning: “(1) [the] likely
difficulty in collecting on any judgment they might obtain
against Koncilja; (2) [Defendants’] unwillingness to advance
[Plaintiff] funds for obtaining a certificate of review [;] and (3)
[Plaintiffs] options2 concerning filing or not filing a
certificate of review.” (Id. at 3-4.) After concluding that
Plaintiff had failed to show that relief was warranted, the
Colorado trial court denied the motion. (Id. at 4.)
Plaintiff then initiated appellate proceedings,
resulting in the Colorado Court of Appeals affirming the
denial of the motion for relief from judgment. (Id. at 11.)
After “filing an unsuccessful motion to disqualify two
members of the panel of the Court of Appeals (ECF Nos. 136 & 13-7) and an unsuccessful petition for rehearing (ECF
Nos. 13-8 & 13-9), [Plaintiff] filed a petition for a writ of
2 In particular, the Affidavit alleges: “[Defendants] instructed [Plaintiff]
that he had the option of paying for an expert to provide a certificate of
review, to forego his claims against Koncilja, or to authorize
[Defendants] to proceed without a certificate of review on the theory
that a certificate of review was not necessary because the claims
against Koncilja were simple and easy to understand, such that a
certificate of review was unnecessary. [Defendants] explained the risks
of all three options, and [Plaintiff] acknowledged those risks. [Plaintiff]
elected to proceed with the claims against Koncilja, but without
obtaining a certificate of review.”
(ECF No. 13-2 f U 3-4.)

10a

certiorari to the Colorado Supreme Court which was likewise
denied (ECF Nos. 13-10 & 13-11).” (ECF No. 13 at 2-3.)
On December 22, 2017, Plaintiff, proceeding pro se,
filed this case asserting claims against the Defendants for
violations of his Fourteenth Amendment Due Process right
and for fraud. (ECF No. 1; ECF No. 9 at 2-3.) In particular,
Plaintiff alleges that Defendants, who represented him in
the malpractice lawsuit against Koncilja, “violated [his]
rights to due process of the law by choosing not to file the
requisite certificate of review” and by failing to “do any
interrogatories, depositions, or investigations ....” (ECF No.
9 at 3.) In addition, Plaintiff alleges that “Defendants
committed extrinsic and intrinsic Fraud against Plaintiff Q
and the State District Court” when they “created and filed .
. . an [unjprovable, non-evidential, sham [A]ffidavit that is
evidentially provable to be fraudulent, perjured in all
aspects, and grounds for disbarment and criminal
prosecution.” (Id.)
On June 29, 2018, Defendants filed a Motion to
Dismiss the complaint pursuant to Rule 12(b)(6) of the
Federal Rules of Civil Procedure. (ECF No. 13). In the
motion, Defendants argue that, even after a liberal reading
(as warranted by his pro se status), Plaintiffs complaint fails
to meet the minimal standard of stating a valid claim on
which Plaintiff could reasonably prevail. (Id. at 3-4.) In
addition, Defendants assert that this Court does not have
jurisdiction because: (1) Plaintiffs federal question claim
fails since the Defendants are not state actors; and (2)
diversity jurisdiction does not exist because all parties
“reside[] in Colorado or do business in Colorado.” (Id. at 4.)
Moreover, Defendants argue that Plaintiffs
“attempted legal malpractice claim is barred by the RookerFeldman doctrine which generally prohibits lower federal
courts from hearing federal claims requiring direct review of

11a

final state court judgments.” {Id.) In closing, Defendants
claim:
What [Plaintiff} is attempting to accomplish is to have
this federal court review the judgment of the
[Colorado] District Court and the Colorado Court of
Appeals and denial of certiorari by the Colorado
Supreme Court. To accomplish this end, [Plaintiff]
simply adds to his malpractice claim stating he was
denied to due process of law. This is not permitted.
(Id.) The Magistrate Judge reviewed the Motion and issued
her Recommendation on September 17, 2018. (ECF No. 21.)

II. LEGAL STANDARD
When a magistrate judge issues a recommendation on
a dispositive matter, Federal Rule of Civil Procedure 72(b)(3)
requires that the district judge “determine de novo any part
of the magistrate judge’s [recommendation] that has been
properly objected to.” An objection to a recommendation is
properly made if it is both timely and specific. United States
v. 2121 East 30th St., 73 F.3d 1057, 1059 (10th Cir. 1996).
An objection is sufficiently specific if it “enables the district
judge to focus attention on those
issues—factual and legal—that are at the heart of the
parties’ dispute.” Id. In conducting its review, “[t]he district
court judge may accept, reject, or modify the
recommendation; receive further evidence; or return the
matter to the magistrate judge with instructions.” Fed. R.
Civ. P. 72(b)(3). Here, Plaintiff filed a timely objection to the
Magistrate Judge’s Recommendation. (ECF No. 22.)
Therefore, this Court reviews the issues before it de novo.
Under Rule 12(b)(6), a party may move to dismiss a
claim in a complaint for “failure to state a claim upon which

12a

relief can be granted.” Fed. R. Civ. P. 12(b)(6). “The court s
function on a Rule 12(b)(6) motion is not to weigh potential
evidence that the parties might present at trial, but to assess
whether the plaintiffs complaint alone is legally sufficient to
state a claim for which relief may be granted.” Dubbs v. Head
Start, Inc., 336 F.3d 1194, 1201 (10th Cir. 2003) (internal
quotation marks omitted).
The Rule 12(b)(6) standard requires the Court to
“assume the truth of the plaintiffs well-pleaded factual
allegations and view them in the light most favorable to
the plaintiff.” Ridge at Red Hawk, LLC v. Schneider, 493
F.3d 1174, 1177 (10th Cir. 2007). Thus, in ruling on a Motion
to Dismiss under Rule 12(b)(6), the dispositive inquiry is
“whether the complaint contains ‘enough facts to state a
claim to relief that is plausible on its face.’” Id. (quoting Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)); see also
Ashcroft v. Iqbal, 559 U.S. 662, 678 (2009).
Granting a motion to dismiss “is a harsh remedy
which must be cautiously studied, not only to effectuate the
spirit of the liberal rules of pleading but also to protect the
interests of justice.” Dias v. City & Cnty. of Denver, 567 F.3d
1169, 1178 (10th Cir. 2009) (internal quotation marks
omitted). “Thus, ‘a well-pleaded complaint may proceed
even if it strikes a savvy judge that actual proof of those facts
is improbable, and that a recovery is very remote and
unlikely.’” Id. (quoting Twombly, 550 U.S. at 556). However,
“[t]he burden is on the plaintiff to frame a complaint ‘with
enough factual matter (taken as true) to suggest’ that he or
she is entitled to relief.” Robbins v. Oklahoma, 519 F.3d
1242, 1247 (10th Cir. 2008) (quoting Twombly, 550 U.S. at
556). “[CJomplaints that are no more than ‘labels and
conclusions’ or ‘a formulaic recitation of the elements of a
cause of action,’. . . ‘will not do.’” Id. (quoting Twombly, 550
U.S. at 555).

13a

Further, in considering the Magistrate Judge’s
recommendation, the Court is also mindful of Plaintiffs pro
se status, and accordingly, reads his pleadings and filings
liberally. Haines v. Kerner, 404 U.S. 519, 520-21 (1972);
Trackwell v. United States, 472 F.3d 1242, 1243 (10th Cir.
2007). The Court, however, cannot act as advocate for
Plaintiff, who must still comply with the fundamental
requirements of the Federal Rules of Civil Procedure. See
Hall v. Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991); see
also Ledbetter v. City of Topeka, 318 F.3d 1183, 1188 (10th
Cir. 2003).
III. ANALYSIS
The Magistrate Judge recommended that: (1)
Defendants’ Motion to Dismiss (ECF No. 13) be granted; (2)
Plaintiffs Fourteenth Amendment claim be dismissed with
prejudice-, and (3) supplemental jurisdiction over Plaintiffs
fraud claim not be exercised by this Court. (ECF No. 21 at
6.) The Magistrate Judge made several findings to reach
these recommendations. Plaintiff specifically objects to each
of the Magistrate Judge’s findings supporting his
recommendation. (ECF No. 22.) This Court will address the
Magistrate Judge’s findings and Plaintiffs objections in
turn.3
A. Fourteenth Amendment Claim
In the Recommendation, the Magistrate Judge noted
that, under 42 U.S.C. § 1983,4 “persons acting under the
3 Plaintiff makes several arguments in his Objection, most of which are
extraneous to the issues at hand. (ECF No. 22.) For purposes of this
Order, the Court will focus exclusively on the arguments that relate to
the Magistrate Judge’s Recommendation (ECF No. 21).
4«

[CJlaims alleging violation of the Fourteenth Amendment must be
brought pursuant to 42 U.S.C. § 1983; the Amendment itself does not

14a

color of state law can be held liable for depriving others of
their constitutional rights.” (ECF No. 21 at 4.) See also
Adickes v. S.H. Kress & Co., 398 U.S. 144, 150 (1970). The
Recommendation further noted:
In order to show that an action was taken under color
of state law, a plaintiff must show: (1) that the
“alleged constitutional deprivation [was] ‘caused by
the exercise of some right or privilege created by the
State or by a rule of conduct imposed by the State or
by a person for whom the state is responsible,” and (2)
that the “party charged with the deprivation [was] a
person who may fairly be said to be a state actor.”
(ECF No. 21 at 4 (quoting Am. Mfrs. Mut. Ins. Co. v.
Sullivan, 526 U.S. 40, 50 (1999)).) The Magistrate Judge
recommended that the Fourteenth Amendment claim be
dismissed because Plaintiff had failed to plead “any facts to
show that the [Defendants are state actors.” (ECF No. 21 at
5.)
In his Objection, Plaintiff argues that the Defendants
are “state actors under color of state and federal law.” (See
ECF No. 22 at 4-5.) To support his argument, Plaintiff
cites a Supreme Court case which states: “[A] person Q may
fairly be said to be a state actor ... [if] he has acted together
with or has obtained significant aid from state officials
(Id. at 4 (citing Lugar v. Edmondson Oil Co., 457 U.S. 922,
937 (1982)).) Plaintiff makes several assertions to support
his allegation that Defendants acted together with and
obtained significant aid from state officials.
First, Plaintiff claims that the state court allowed the
Defendants to submit the “sham [A]ffidavit ... 11 months
after the deadline to introduce an affirmative defense.” (Id.
provide a direct cause of action.” Robinson v.Bd. of Regents of Univ. of
Colo., 390 F. Supp. 2d 1011, 1017 (D. Colo. 2005).

15a

at 4.) Second, Plaintiff alleges that a state trial court judge
allowed Defendants’ Affidavit to be introduced into the
record without a motion, even though the judge had
previously ruled that it could be introduced “only upon a
motion.” (Id. at 5.) Third, Plaintiff asserts that a state trial
court judge who presided over his case could have served as
his expert witness and when she refused to do so she “legally
align[ed] herself with [the Defendants], ignoring the rules of
law and equity.” (Id.) Fourth, Plaintiff claims that the
Magistrate Judge “made an unjustified ruling that granted
[Defendants’] Motion for Summary Judgment, without legal
or equitable justification.” (Jd)« Fifth, Plaintiff alleges that
the courts committed all of the foregoing discrepancies even
though “Plaintiff had done everything correctly, including
the introduction of 31 pieces of evidence,” while the
Defendants’ only evidence was the “sham [Affidavit.” (Id at
4-5.)
Generally, “a lawyer representing a client is not, by
virtue of being an officer of the court, a state actor ‘under
color of state law’ within the meaning of § 1983.” Polk County
v. Dodson, 454 U.S. 312, 318 (1981). A sufficient claim of a
conspiracy between a private lawyer and state actors,
however, could support the allegation that a private lawyer
acted under color of state law.” Ellibee v. Fox, 244 F. App’x.
839, 843 (10th Cir. 2007) (citing Tower v. Glover, 467 U.S.
914, 920 (1984)). “When a plaintiff in a § 1983 action
attempts to assert the necessary ‘state action’ by implicating
state .. .judges in a conspiracy with private defendants, mere
5 In hie Objection, Plaintiff claims that this Court (and not the
Magistrate Judge) made the alleged “unjustified ruling” that granted
Defendants’ motion for summary judgment. The Defendants, however,
have never filed a motion for summary judgment in this lawsuit and
this Court has made no such ruling. Thus, it appears that Plaintiff is
referring to the Magistrate Judge’s recommendation that Defendants’
Motion to Dismiss be granted. But Plaintiff has not alleged that the
Magistrate Judge participated in the state court lawsuit.

16a

conclusory allegations with no supporting factual averments
are insufficient; the pleadings must specifically present facts
tending to show agreement and concerted action.” Raiser v.
Kono, 245 F. App’x. 732, 736 (10th Cir. 2007) (quoting Sooner
Prods. Co. v. McBride, 708 F.2d 510, 512 (10th Cir. 1983)).
This “standard is even stricter where the state officials
allegedly involved in the conspiracy are immune from suit,
as are the state court judges here.” Id.
Plaintiffs Amended Complaint does not contain any
facts, or even conclusory allegations, that could establish an
agreement or meeting of the minds between Defendants and
the state court judges to deprive him of his constitutional
right of Due Process. (See ECF No. 9 at 2—3.) Instead, the
Amended Complaint merely states that Defendants
“violated [his] rights to due process of the law by choosing
not to file the requisite certificate of review” and by failing to
do “any interrogatories, depositions, or investigations in
Plaintiffs lawsuit against Koncilja. (Id. at 3.) In fact,
Plaintiff does not once allege a conspiracy between
Defendants and any state actor until his Objection.
(See ECF No. 22 at 4^5.)
Even if this Court construed the Objection to be a
supplement to the Amended Complaint, Plaintiff still fails to
state a claim upon which relief can be granted. In the
Objection, Plaintiff merely cites rulings by the state court
that were not favorable to him. This is far from establishing
an agreement or meeting of the minds between Defendants
and the state court judges to deprive him of any federal
rights. Thus, Plaintiff has failed to state a cognizable claim
under § 1983. Accordingly, the Court adopts the Magistrate
Judge’s Recommendation in regard to Plaintiffs Fourteenth
Amendment claim and grants Defendants’ Motion to
Dismiss the claim.
B. Supplemental Jurisdiction

17a

The Magistrate Judge recommended that if this Court
dismisses Plaintiffs constitutional claim, which it has done,
it should also decline to exercise supplemental jurisdiction
over the remaining state law claim of fraud. (ECF No. 21 at
5-6.) The Recommendation noted that this Court would no
longer have federal question jurisdiction once the
constitutional claim is dismissed. (Id. at 5.) In addition, the
Magistrate Judge found that Plaintiff “concedes that there is
no diversity jurisdiction pursuant to 28 U.S.C. § 1332.” (Id.see ECF No. 16 at 2.)
In his Objection, Plaintiff argues that this Court has
diversity jurisdiction because “[he] meets the diversity
criteria . . . because he [is] not just racially diverse, but
diversity can also apply to educational level, brain injury
challenges, and access to the legal information.” (ECF No. 22
at 6.) In addition, Plaintiff claims that “not being an attorney
set[s] him apart automatically as diverse, as well as his lifethreatening, continually debilitating work injuries form [sic]
11/2006, that are the foundation for this case at hand.” (Id.)
But Plaintiff simply misunderstands the meaning of
“diversity” in this context, which is entirely focused on the
geographic residence of the parties. See 28 U.S.C. § 1332.
In the Motion to Dismiss, Defendants assert that
diversity jurisdiction does not exist in this case because “[a]ll
parties [have] always resided in Colorado or do business in
Colorado.” (ECF No. 13 at 4.) In his response, Plaintiff states
that his “case does not involve diversity [jurisdiction]” but
instead involves federal question jurisdiction. (ECF No. 16
at 2, 5.) In addition, Plaintiff notes in his proposed
scheduling order that Plaintiff is a resident of Colorado,
Defendant Paul Gordon is an attorney practicing law in
Colorado, and Defendant Paul Gordon, LLC, is a company
doing business in Colorado.6 (ECF No. 20 at 15.) In sum,
6 While the citizenship of a corporation, for diversity jurisdiction
purposes, is determined by the state(s) in which the entity is

18a
Plaintiff has provided this Court with no basis to conclude
that diversity jurisdiction exists. Accordingly, the Court only
has supplemental jurisdiction over the remaining fraud
claim. See 28 U.S.C. § 1367.
The Court has now dismissed Plaintiffs constitutional
claim in its entirety and with prejudice. A federal court does
not have original jurisdiction over a state law claim unless
that state law claim “turn[s] on substantial questions of
federal law.” Grable & Sons Metal Prods., Inc. v. Darue Eng’g
& Mfg., 545 U.S. 308, 312 (2005). Plaintiffs remaining state
law claim does not turn on questions of federal law.
Federal supplemental subject matter jurisdiction over
a state law claim “is extended at the discretion of the court
and is not a plaintiffs right.” TV Commc’ns Network, Inc. v.
Turner Network Television, Inc., 964 F.2d 1022, 1028 (10th
Cir. 1992). According to 28 U.S.C. § 1367(c)(3), a district
court may decline to exercise supplemental jurisdiction if
“the district court has dismissed all claims over which it has
original jurisdiction.” The Tenth Circuit has gone further
and held that “[w]hen all federal claims have been dismissed,
the court may, and usually should, decline to exercise
jurisdiction over any remaining state claims.” Koch v. City of
Del City, 660 F.3d 1228, 1248 (10th Cir. 2011) (emphasis
added).
In considering whether to exercise supplemental
jurisdiction, “a federal court should consider and weigh in
each case, and at every stage of the litigation, the values of
judicial economy, convenience, fairness, and comity in order
incorporated and the state where its principal place of business is
located, the citizenship of a LLC is determined by the citizenship of all
of the entity’s members. See Siloam Springs Hotel, L.L.C. v. Century
Sur. Co., 781 F.3d 1233, 1237 (10th Cir. 2015). Paul Gordon, a resident
of Colorado, is presumably a member of Paul Gordon, LLC.
Thus, Paul Gordon, LLC, is a citizen of Colorado.

19a

to decide whether to exercise jurisdiction over a case brought
in that court involving pendent state-law claims.” CarnegieMellon Univ. v. Cohill, 484 U.S. 343, 350 (1988). In the
interest of comity and federalism, district courts are advised
against making “[n]eedless decisions of state law.” TV
Commons Network, Inc., 964 F.2d at 1028.
The instant suit is not yet close to trial, so issues of
judicial economy and fairness are not implicated here. See
Carnegie-Mellon Univ., 484 U.S. at 350. Rather, “[njotions
of comity and federalism demand that a state court try its
own lawsuits, absent compelling reasons to the contrary.”
Thatcher Enters, v. Cache Cnty. Corp., 902 F.2d 1472, 1478
(10th Cir. 1990). The remaining claim of fraud is grounded
in Colorado common law; no federal laws are implicated by
the claim. Since the Court finds no compelling reasons to
maintain jurisdiction over this suit, the Court declines to
exercise its supplemental jurisdiction over the remaining
fraud claim.
IV. CONCLUSION
For the reasons set forth above, the Court ORDERS
as follows:
1. The Recommendation (ECF No. 21) is ADOPTED in its
entirety;
2. Plaintiffs Objection (ECF No. 22) is OVERRULED;
3. Defendants’ Motion to Dismiss (ECF No. 13) is
GRANTED;
4. Plaintiffs Fourteenth Amendment claim is DISMISSED
WITH PREJUDICE;

20a

4. The Court DECLINES to exercise its supplemental
jurisdiction over Plaintiffs remaining state law claim of
fraud and thus that claim is DISMISSED WITHOUT
PREJUDICE; and
5. The Clerk of the Court shall enter judgment in favor of
Defendants and terminate this case. Each party shall bear
his or its own attorneys’ fees and costs.
Dated this 17th day of December 2018.
BY THE COURT:
William J. Martinez

21a

The following Opinion of the Pueblo County District Court
dated January 16, 2016, follows on the next page:

22a

DISTRICT COURT
Pueblo County, Colorado
501 North Elizabeth Street
Pueblo, Colorado 81003
Plaintiff: ANTHONY LUCERO

DATE HIED: January 20 2016

V.

& COURT USE ONLY t
Case Number: 13CV248
Division 403

Defendants: PAUL GORDON and PAUL
GORDON, LLC_______________

ORDER DENYIN(^PLAINTIFFS MOTION FOR RELIEF FROM ORDER
REGARDING DEFENDNTS SECOND RENEWED MOTION FOR SUMMARY
JUDGMENT^ Ml TPP SOI IGHT PURSUANT TO C.R.C.P.. bO(B)fZlfflfS) 120131.”
This matter is before the Coun regarding Plaintiffs Motion for Relief as titled above.
The Court has considered the motion, response, reply and the Court file. Having been fu y
advised, the Court issues the following order:
1 On June 3 2015 the Court issued an order entitled “Order Regarding Defendants Second
Renewed Motion forSummary Judgment” The- Court granted the Defendant’s Second Renewed
Motion for Summary Judgment at that time.
2. On December^ 2015, Plaintiff filed ibis Motion for Relief and makes this request pursuant to
C.R.C.P. Rule 60(b) subsections (2), (3) and (5).
3. The relevant portions of Rule 60(b) are subsection (2): fraud, misrepresentation, or other
misconduct of an adverse party, subsection (3) the judgment is void, and subsection (5) is any
other reason justifying relief from the operation of the judgment
4. The Court has reviewed the file and is very familiar with the procedure of this case. The

Court allowed Mr. Lucero every opportunity to litigate his claims in this matter.

5. The Court is not persuaded by the arguments of Mr. Lucero and he has failed to demonstrate
that relief is warranted under Rule 60(b)(2), (3), or (5).
Therefore, his motion for Relief is DENIED.
BY THE COURT:

/
/

i

1/

!

KIMBERLY KARN
DISTRICT COURT JUDGE
1

;

ISN2003MC6871S&KD32

